No.

IN THE SUPREME COURT OF THE UNITED STATES

DEVERICK SCOTT # 131042
Vs.
PAMELA COOK

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TP
8th CIRCUIT COURT OF APPEALS

FI LED

OCT 1 3 2020

PETITION FOR WRIT OF CERTIORARI

Presented by
Deverick Scott # 131042
Pro Se
P.O. Box 400
Grady, AR. 71644

QUESTION(S) PRESENTED

1. Was inmate Scott engaged in an activity he was entitled to perform by writing a
prisoner grievance explaining “3 months earlier he had set his cell on fire and
was issue old laundry. He need new laundry.” Was that an exercise of Scott’s
constitutional right? Cornell v. Woods 69 F3d 1383; Haynes v. Stephenson
2008 WL 4368994; Franco v. Kelley: 854 F2p 584. 589 (2d Cir 1988);
Sprouse v. Babcock 870 F2d 450,452 (8th Cir 1989).
2. When Appellee Cook stated: “on 9/18/18 I Sgt. Cook stated an investigation on D.
Scott # 131042 after receiving a grievance from D. Scott # 131042” in disciplinary
she wrote Scott for stating in grievance he set his cell on fire 3 months earlier.
Charging him for setting his cell on fire. Is that retaliation of Scott using prison
grievance system. Garland v. Polley 594 f2d 1220,1222-23 (8th Cir 1979):
Cornell v. Woods 69 f3p 1383: Murphy v. Missouri Dept of Correction,
769 f2d 502, 503 (8th Cir 19851: Sprouse v. Babcock 870 F2d 450. 452 (8th
Cir 1989).
3. Do the “some evidence” standard need to be addressed and change in retaliation
cases that it automatically check mate a retaliation case. Cause in the instant
case shows flaws in that standard. In this case the District Court; Court of
Appeals ruled by Scott admitting in grievance he wrote 3 months later explaining
his actions and why he needed laundry was “some evidence” needed to check
mate Scott retaliation claim, even though Scott had already received disciplinary
for some rule violations. If Scott wouldn’t wrote grievance about needing laundry,

i

Cook wouldn’t have wrote grievance, cause cook didn’t write grievance when
Scott first burnt all up and she sent him old laundry cause of it. Should retaliation
disciplinary inmates alleging be put to a new standard of today’s society.
Cornell v. Woods 69 f3p 1383: Goff 7 f3d 738: Sprouse v. Babcock 870
F2d 450, 452 (8th Cir 1989): Haynes v. Stephenson 2008 WL 4368994

li

LIST OF PARTIES

K] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

in

Table of Contents

Table of Contents

IV

v

INDEX TO APPENDICES
TABLE OF AUTHORITIES CITED

vi

OPINIONS BELOW

7

JURISDICTION

8

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

9

STATEMENT OF THE CASE

10

REASONS FOR GRANTING THE PETITION

12

A. Conflicting decision among Circuit Courts

12

B. Need for broader interpretation of constitution standards of retaliation of use
of prisoner grievance system.............................................................................. 13
C. The need for a declaration that if “some evidence” is a disciplinary inmate
was found guilty of. Then he wrote grievance later explaining an incident
concerning that situation. And officer receive grievance and write inmate
another grievance once they start an investigation on incident he already found
guilty of that’s retaliation of that grievance the inmate previously wrote.......... 18
CONCLUSION

19

INDEX TO APPENDICES

1

IV

INDEX TO APPENDICES

APPENDIX A : Findings of United States District Court 1-7
APPENDIX B : Order of United States District Court
APPENDIX C : Judgment of United States Court of Appeals

V

TABLE OF AUTHORITIES CITED

Cases
Cornell v. Woods 69 F3d 1383 .........................................

i, ii, 15

Dixon v. Brown, 38 F3d 379 (8th Cir 1994).....................

16

Franco v. Kelley; 854 F2d 584, 589 (2d Cir 1988)...........

i, 15, 16

Garland v. Polley 594 £2d 1220, 1222-23 (8th Cir 1979)..

l

Gluston v. Coughlin at 81 F.Supp 2d 381.........................

15

Goff 7 f3d 738..................................................................

ii, 12, 14, 15

Hartsfield v. Nichols 511 F3d 826, 829 (8th Cir. 2008)....

14
i,

Haynes v. Stephenson 2008 WL 4368994........................

n

Haynes v. Stephenson, 558 F3d 1152, 1156 (8th Cir)......

15

Hederson v. Baird 29 F.3d 826 (8th Cir. 1994).................

12

Higgs, 286 F.3d 437.........................................................

15

Johnson v. Ganim 342 fid 105, 112 (2nd Cir 2003).........

16

Majluta v. Samples, 375 F.3d 1269, 1273 (11th Cir 2004)

15

Murphy v. Missouri Dept of Correction, 769 f2d 502, 503 (8th Cir 1985)

i, 16

Pratt v. Rowland, 65 F.3d 802, 806-07 (9th Cir. 1995)

15

Scott v. Cook 5:19-CV-00101 -DPM-JTK.................

10

Scott v. Cook No. 20-1323.........................................

10

Simmons v. Cook 154 F3d 805, 809 (8th Cir 1998)...

17

Sprouse v. Babcock 870 F2d 450, 452 (8th Cir 1989)

i, ii, 12, 17

Thaddeus v. Blaler 175 F3d 378 ................................

16

vi

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.

OPINIONS BELOW

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix C to
the petition and is unpublished.
The opinion of the United States district court appears at Appendix A, B

JURISDICTION

For cases from federal courts:
The date on which the United States Court of Appeals decided my
case was August 17,2020.

No petition for rehearing was timely filed in my case.

No extension of time was filed in my case

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

8

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

This case involves:
1. The 1st Amendment Violations:
a. This Amendment guarantees me to be free from arbitrary abuse of
authority including retaliation.
b. These Amendments are enforced by the title 42 USCA § 1983 of the
United States Code.

9

STATEMENT OF THE CASE

The Petitioner initiated this case pursuant to his constitutional right to be
free from retaliation.
In 2019, the Petitioner sought 42 U.S.C.A. § 1983 relief in the United States
District Court for the Eastern District of Arkansas. See Deverick SCOTT V. Cook
5:19-CV-00101-DPM-JTK. The Court’s denied the Plaintiffs Claims, and
asserted, among other things, “Qualified Immunity” and dismissed with said
complaint with prejudice. (D.E. # 28.0)
Petitioner Appealed.
Petitioner appealed to the United States Court of Appeals for the Eighth Circuit.
See Scott v. Cook No. 20-1323. Consequently the Eight Circuit Court of
Appeals declared that they found no reason/basis for reversal and affirmed the
District Court’s decision; and Petitioner’s reasoning of petitioning the Supreme
Court of the United States.

10

BASIS FOR FEDERAL JURISDICTION
This case asks for an expanded interpretation from the higher of the 1st
Amendment retaliation of use of prisoner grievance procedure. The District Court
had jurisdiction under the General Federal Question jurisdiction conferred by 28
USCA § 1331.

11

REASONS FOR GRANTING THE PETITION

A. Conflicting decision among Circuit Courts
Otherwise proper acts are actionable under § 1983 if done in retaliation for
grievance filed under established grievance procedure.
Goff 7.F3d at 738; Sprouse v. Babrock. 870 F2d 450,452 (8th Cir.
1989) “Just as prison officials cannot lawfully transfer a prisoner for retaliatory
reasons alone (they likewise) cannot impose a disciplinary sanction against a
prisoner in retaliation for the prisoner’s exercise of his constitutional right.
But see Hederson v. Baird 29 F.3d 826 (8th Cir. 1994) “Violation of
regulation essentially check mated retaliation claim” as it did in Scott case.
Here in the first ruling the Court found the right to respond to a prisoner
investigators inquiries is not inconsistent with a person’s status as a prisoner or
with legitimate penological objectives of the correction system.
“same as an inmate writing a grievance”
However in the second ruling it is explicitly clear that the Court considers a
violation of rules a mechanism that voids a retaliation claim.
These standards conflict and should be sorted so that the true and reasonable
test to standardize the right to inmate filing a grievance is known.
12

B. Need for broader interpretation of constitution standards of retaliation of
use of prisoner grievance system.

This case presents fundamental questions of how we will interpret the right
of inmates use of grievance system.
It also involves the standard of review and burden of proof dealing with
“some evidence” rule. Here the lower courts stated cause Scott stated in inmate
grievance that he had admitted to setting his cell on fire that satisfy the “some
evidence” standard that automatically check mated his retaliation claim. But if
Scott wouldn’t wrote grievance explaining he set his cell on fire 3 months earlier,
and already receive disciplinary for that rule violation is reason why he needed
laundry. Ms. Cook never would have started an investigation and written Scott up
for some rule violation again (D.E. 26-0 pg. 15) which two write Scott 2
disciplinaries for same rule violation was against prison policy (D.E. # 34.0 pg. 5;
D.E. 26-0 pg.ll)
Now we arrive at our questions of this case. Did inmate Scott have a
constitutional right to write an inmate grievance he needed some laundry and
explain in that same grievance “why” he needed new laundry, that 3 months earlier
he set his cell on fire?
13

The resolution of this question turns to the question and standard revolves
around “some evidence” and violation of prison rule essentially checkmated
retaliation claim” like in this case is unclear.
The Courts have long held a standard of review that if there was “some
evidence” no claim can be stated when the alleged retaliation arose from discipline
imparted for acts that a prisoner was not entitled to perform. Goff; And a
retaliation claim is precluded if the alleged retaliatory conduct violation was issued
for actual violation of a prison rule, but the showing of “Some Evidence” that the
inmate actually committed a rule violation. Hartsfield v. Nichols 511 F3d
826,829 (8th Cir. 2008). And it legally suffices as “some evidence” upon which
to base a prison disciplinary violation, if the violation is found by an impartial
decision maker.”
In Petitioner case District Court fail to actually view case in favor of Scott.
(1) Scott was not found guilty by an impartial decision maker for prison
disciplinary violation by Appellee Cook (D.E. # 26-0-pg. 13) cause Scott had
already receive disciplinary for that rule violation 3 months earlier. (2) it was
against ADC Policy for Cook to write the disciplinary on Scott for rule violation he
had already been charged. (3) the very fact that Appellee Cook states in
disciplinary; On 9/18/2019,1 Sgt. Cook, Laundry Supervisor started an
investigation on inmate D. Scott #131042 “after receiving a grievance from Inmate
14

D. Scott.” So for Cook to then write Scott a disciplinary for that Grievance is a
retaliation discipline. Pratt v. Rowland, 65 F.3d 802,806-07 (9th Cir. 1995).
The Correct test as set forth in Goff 7 F3d at 738 to see if Cook would wrote the
disciplinary “but” for Scott writing the inmate grievance.
Scott writing an inmate grievance is “undoubtedly quite consistent with
legitimate penological objectives.” Under these facts Scott’s activity implicated his
rights under the First Amendment. Cf. Franco v. Kelley 854 F2d 584,589 (2d
Cir. 1988). Cornell v. Woods 69 F.3d 1383
As Higgs implicitly recognized, a Plaintiff alleging retaliation must
reference at a minimum, the suit or grievance spinning the retaliation and the acts
constituting retaliation conduct. Higgs, 286 F.3d 437 AT 439. Absent these
allegations a Defendant would know how to respond to complaint.
In direct retaliation of grievance (D.E. # 26-0 pg.8) Appellee Cook retaliated
and wrote Scott a retaliatory disciplinary (D.E. # 26-0 pg.15) was an arbitrary
abuse of authority and punishment. Majluta v. Samples, 375 F.3d 1269,1273
(11th Cir 20041: Haynes v. Stephenson, 558 F3d 1152,1156 (8th Cir).
It is settled law that Scott: right to complain he needed new laundry and seek
administrative relief is protected by the First Amendment. “Gluston v.
Coughlin at 81 F.Supp 2d 381,386 (N.D.NY 1999k And Franco v. Kelley
15

854 F2d 504,585 (2nd ClR 1988) (1) The conduct itself and action by Appellee
Cook to write Scott retaliation disciplinary was to harass, retaliate and punish Scott
was an adverse employment action. (2) Scott prior filing of prisoner’s grievance
against Cook was a motivating factor in Appellee Cook adverse employment
action. See Johnson v. Ganim 342 f3d 105,112 (2nd Cir 2003). Making Scott
injury to his First Amendment was Cook writing the retaliation disciplinary itself.
Thaddetjs v. Blaler 175 F3d 378,394 (6th Cir 1999) (en banc) holding in a
prisoner retaliation case that the injury is “adverse consequences which flow from
the constitutional protection action”) Dixon v. Brown, 38 F3d 379 (8th Cir
1994) (Noting a prisoner case, that the injury in here in the retaliatory conduct
itself.)
For Cook to write Scott a disciplinary to intentionally punish Scott is enough
to “Chill” an ordinary inmate from further use of grievances which is motivating
factor Cook wrote disciplinary cause once she refuse to give Scott new laundry^
wrote grievance to make her give him new laundry (D.E. # 26-0 pg. 8) Scott has
met his evidentiary burden by submitting direct evidence Appellee Cook wrote
Scott disciplinary in retaliation. Murphy v. Missouri Dept of Correction
769 F2d 502-503 (8th Cir. 1985) (“Prison officials do not have the discretion to
punish him for exercising his First Amendment Rights...”) It was not objectively

16

reasonable for the officials to punish Scott cause he participated in prisoner
grievance procedure.
Scott is entitled to compensatory, punitive, and nominal damages for Cook
violation of his 1st Amendment rights. See Sprouse v. Bobcock 870 f2d 450,
452 (8th Cir 1999k Simmons v. Cook 154 F3d 805,809 (8th Cir 1998k
Upholding $2,000 damage award for paralegal inmate placed in solitary
confinement for thirty two hours.

17

C. The need for a declaration that if "some evidence" is a disciplinary inmate
was found guilty of. Then he wrote grievance later explaining an incident
concerning that situation. And officer receive grievance and write inmate
another grievance once they start an investigation on incident he already
found guilty of that's retaliation of that grievance the inmate previously wrote.

18

CONCLUSION

Here the lower courts have spoken and Petitioner humbly requests the Higher
Court to grant Certiorari and re-order these questions. Reverse, remand to District
Court for Trial, and appointment of counsel.
For these reasons the petition for a writ of certiorari should be granted.
I swear under penalty of perjury the foregoing is true and correct and best of my
knowledge, understanding and belief
Executed this //^ day of

, 2020.

Respectfully submitted,
Deverick Scott# 131042
P.O. Box 400
Grady, AR. 71644

19

